                                                ~ SECu
                                               Ov~
                                               W/'{JS~~
                                               \~     1IIIIII !<.-9<"
                                                    "'1sTi-t'

                                   SOOAL             SECURITY

                                    Office of the Inspector General
MEMORANDUM
                                                                          Refer To:   31233-23-203
Date: AUG 2 1 2001
        Larry G. Massanari
To:     Acting Commissioner

         of Social   Security

From:   Inspector General




        The attached final report presents the results of our audit. Our objective was to
        evaluate the effectiveness of internal controls over payments for services rendered by
        vocational and medical experts.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION


    VOCATIONAL EXPERT AND
     MEDICAL EXPERT FEES
        FOR SERVICES


  August 2001       A-06-99-51005




AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                   Executive Summary
OBJECTIVE
Our objective was to evaluate the effectiveness of internal controls over payments for
services rendered by vocational and medical experts.

BACKGROUND
A claimant who is not satisfied with a reconsideration determination rendered at the
State Disability Determination Services can request a hearing before an Administrative
Law Judge (ALJ). The Office of Hearings and Appeals (OHA) is responsible for holding
hearings and issuing decisions as part of the Social Security Administration's (SSA)
process for determining whether a person may receive benefits. The ALJ may obtain
the services of a Vocational Expert (VE) or Medical Expert (ME) to either testify at the
hearing or provide answers in written interrogatories. The preferred method for
obtaining the opinion of an expert is through live testimony at a hearing.

OHA uses a Blanket Purchase Authorization (BPA) process to obtain VE and ME
services. The experts who sign the BPAs agree to provide impartial expert opinion to
OHA. After the BPA is signed, the regional offices create master rosters. These rosters
are sent to the HOs within each region and copies are forwarded to the Office of the
Chief Administrative Law Judge (OCALJ) in Falls Church, Virginia. The rosters are
used as a reference when an ALJ requires the opinion of an expert. In Fiscal Year
(FY) 1999, OHA established BPAs with 1,337 VEs and 1,644 MEs.

At the direction of the ALJ, the HO calls experts to testify. The HO also monitors the
services and fees paid to the experts. The experts are compensated for services based
on a fixed fee schedule for services provided. When the ALJ requests the use of an
expert, the HO prepares form HA-590-UA, Call Order/Contractor’s Invoice (invoice).
The invoice is considered the official call order and record of services provided to the
ALJ. To request payment, the expert submits a batch of invoices with a “Consolidated
Monthly Invoice for Expert Witness Services” (voucher) to the Office of Finance,
Division of Administrative Payments (DAP).

DAP administers the expert payment process and maintains the original vouchers and
invoices for experts covered by a BPA. The voucher and invoices are filed by FY in
folders in mobile file units located in the DAP.

In FY 1999, payments to VEs totaled $21.6 million and payments to MEs totaled
$15.5 million for a combined total of $37.1 million. This combined total represents
5.4 percent of the FY 1999 OHA budget of $687 million.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     i
RESULTS OF REVIEW
Our audit disclosed that internal controls over payments for services rendered by
vocational and medical experts were not effective in detecting and preventing improper
payments. The internal control of management should provide reasonable assurance of
effectiveness and efficiency of operations; reliability of financial reporting; and
compliance with applicable laws and regulations. A fundamental concept of internal
controls is that it is a continuous built-in component of operations; it is effected by
people; and it provides reasonable assurance, not absolute assurance.

From our random sample of 100 vouchers, we reviewed 88 vouchers and the attached
944 invoices. DAP could not locate 12 vouchers for our review. Of the 88 vouchers
reviewed, we found 5 vouchers containing 11 invoices where DAP made overpayments
totaling $355. We also found 38 vouchers where DAP paid 170 invoices (totaling
$17,445) which were not properly authorized or dated.

•	 Inaccurate payments: We found six invoices where the amount paid exceeded the
   amount specified in the fee schedule for the services reflected on the invoice; one
   invoice where the fee billed and paid was more than the amount due for the service
   provided; three invoices for three VEs where the VEs were paid at the higher rate for
   more than one “first appearance” on the same day; and one invoice that was paid
   although it was a duplicate invoice.

•	 Invoices not properly authorized or dated: We found that 27 invoices did not have
   one or more of the required authorizing signatures, 134 invoices for which dates
   were missing next to one or more of the authorizing signatures, and 9 invoices
   where there was no indication that the authorizing official approved the changes
   made on the invoice. For these invoices, we were able to confirm that services were
   rendered and the experts were entitled to payment.

•	 Missing vouchers: DAP could not find 12 of the 100 vouchers (12 percent) in our
   sample. DAP staff searched extensively over a 2-week period to locate the missing
   vouchers. Since the 12 missing vouchers and attached invoices could not be
   located, we were unable to verify that the vouchers were properly authorized and
   dollar amounts were accurate.

These errors occurred because: (1) HOs did not perform a quality review of the invoices
before releasing them to the experts; (2) the internal controls in the payment process
were inadequate; and (3) DAP did not follow its own quality control procedures.

Projecting the results of our sample items to the population of 33,100 vouchers valued
at $37.1 million we estimate that 12,578 vouchers contain invoices totaling $5.8 million
where payments were not properly signed or dated. We also estimate that 3,972
vouchers totaling $3.4 million cannot be located.



Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     ii
CONCLUSIONS AND RECOMMENDATIONS
The process for paying VEs and MEs for services rendered contains weaknesses that
hinder SSA's ability to minimize the opportunities for fraud, waste, and abuse. We
found that the HOs do not perform a quality review of invoices before releasing them to
the expert. The HO process of turning the invoices over to the expert for direct billing to
DAP creates an internal control weakness in that SSA does not control the authorizing
document. Further, SSA does not have a compensating control with which HOs can
confirm to DAP that services were provided. A VE or ME could conceivably alter the
invoice before sending it to DAP. Furthermore, OHA does not have the capability to
reconcile payments made by DAP with services rendered by the experts. We also
found that DAP did not follow its policies and procedures for examining the accuracy
and proper authorization of vouchers, and it did not have specific guidelines for tracking
and filing vouchers.

To strengthen the controls of the VE and ME payment process, we recommend that
SSA:

•	 Establish a quality review process in HOs to ensure that invoices have the correct
   fee amounts for services actually performed and contain all appropriate authorizing
   signatures and dates.

•	 Establish a system of management controls whereby:
      The control of the original invoice is not turned over to the experts for direct
      billing to DAP;
      HOs can confirm to DAP that services were provided;
      OHA can reconcile payments made by DAP with services rendered by the
      experts; and
      SSA can determine its liability to experts for services rendered without having to
      rely solely on vouchers submitted by experts.

•	 Update DAP examination procedures and require that DAP staff perform a quality
   review of vouchers for completeness and accuracy before effecting payment.

•   Establish guidelines to ensure the accountability of payment files at DAP.

AGENCY COMMENTS
In response to our draft report, SSA disagreed with our first and second
recommendations. However, SSA plans to explore methods to strengthen the current
payment process to ensure its accuracy and to assess the implications for implementing
a system of management controls. SSA agreed with our third and fourth
recommendations. (See Appendix C for SSA’s comments.)




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     iii
OIG RESPONSE
While SSA disagreed with our first recommendation, SSA also described several
management controls that are already in place in its HOs. However, we continue to
believe that HOs should ensure the control procedures are completed. While SSA
explores efforts to strengthen the current payment process, it should also consider how
best to monitor compliance with its existing procedures.

With respect to our second recommendation, we agree that the impact on current
staffing and workloads are a concern that should be considered when implementing a
system of management controls. However, these concerns should not be used as a
basis for ignoring the vulnerabilities that exist in the current process. SSA needs to
control the billing process for expert services and ensure that it can account for its
liability for the services rendered—a basic management responsibility. The current
process does not provide this capability, nor does it allow HOs to readily confirm to DAP
that services were rendered.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                 iv
                                                                    Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

   HO AND DAP RESPONSIBILITIES ................................................................... 4

   INTERNAL CONTROLS..................................................................................... 5

   SERVICES RENDERED AND AMOUNTS PAID................................................ 6

   INVOICE AUTHORIZATIONS ............................................................................ 7

   MISSING VOUCHERS ...................................................................................... 8

CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


APPENDICES


APPENDIX A – Vocational Expert and Medical Expert Fee Schedules


APPENDIX B – Sampling Methodology and Results


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgments





Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                                                         Acronyms

 ALJ                Administrative Law Judge


 BPA                Blanket Purchase Authorization


 C.F.R.             Code of Federal Regulations


 DAP                Office of Finance, Division of Administrative Payments


 Expert             Vocational Experts and/or Medical Experts


 FACTS              Financial Accounting System


 FY                 Fiscal Year


 HO                 Hearing Office


 Invoice            HA-590-UA, Call Order/Contractor’s Invoice


 ME                 Medical Expert


 OAG                Office of Acquisition and Grants


 OCALJ              Office of the Chief Administrative Law Judge


 OHA                Office of Hearings and Appeals


 SSA                Social Security Administration


 VE                 Vocational Expert


 Voucher            Consolidated Monthly Invoice for Expert Witness Services





Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                                                          Introduction

OBJECTIVE
Our objective was to evaluate the effectiveness of internal controls over payments for
services rendered by vocational and medical experts.

BACKGROUND
A claimant who is not satisfied with a reconsideration determination rendered at the
State Disability Determination Services can request a hearing before an Administrative
Law Judge (ALJ). The Office of Hearings and Appeals (OHA) is responsible for holding
hearings and issuing decisions as part of the Social Security Administration's (SSA)
process for determining whether a person may receive benefits.1 Before scheduling a
hearing, the ALJ, or the Hearing Office (HO) staff under the ALJ's direction, review all
evidence to determine whether the evidence is sufficient or that additional evidence is
required.

The ALJ may obtain the services of a Vocational Expert (VE) or Medical Expert (ME) to
either testify at a hearing or provide answers in written interrogatories. In obtaining the
services of a VE, the ALJ selects individuals who are qualified in vocational
rehabilitation with extensive experience and knowledge of the local workforce to provide
credible testimony. In seeking ME testimony, the ALJ selects physicians and mental
health professionals who provide impartial expert opinion in specific medical specialties.

The preferred method for obtaining the opinion of an expert is through live testimony at
the hearing. Although written interrogatories are acceptable, the hearing provides the
claimant and the representative an opportunity to ask the VE or ME (expert) any
questions relevant to the issues. At the hearing, the claimant and witnesses testify
under oath or affirmation, and the testimony is recorded verbatim.

HO Procedures
                        OHA uses a Blanket Purchase Authorization (BPA)
In Fiscal Year 1999,    process to obtain VE and ME services.2 In June 1993, the
1,337 VEs and 1,644 MEs SSA, Office of Acquisition and Grants (OAG) delegated the
Signed Blanket          authority to the OHA regional offices to establish a BPA
Purchase Agreements     process in the field to manage the VE and ME program.
with OHA                The delegation included discretionary approval to obtain
                        expert services for 1-year or 2-year periods. The experts

1
    20 C.F.R. §§ 404.929 through 404.961 and 416.1429 through 416.1461.
2
  Memorandum from the Office of Acquisition and Grants to OHA, Acquisition Guideline, 94-01, dated
August 15, 1994 discusses the delegation of authority and revisions to the BPA process beginning in
Fiscal Year 1995.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                                1
who sign the BPAs agree to provide impartial expert opinion to OHA. After the BPA is
signed, the regional offices create master rosters. These rosters are sent to the HOs
within each region and copies are forwarded to the Office of the Chief Administrative
Law Judge (OCALJ) in Falls Church, Virginia. The rosters are used as a reference
when an ALJ requires the opinion of an expert. In Fiscal Year (FY) 1999, OHA
established BPAs with 1,337 VEs and 1,644 MEs.

At the direction of the ALJ, the HO calls experts to testify. The HO also monitors the
services and fees paid to the experts. The experts are compensated for services based
on a fixed fee schedule for services provided. The fee schedules are illustrated at
Appendix A. When the ALJ requests the use of an expert, the HO prepares a form
HA-590-UA, Call Order/Contractor’s Invoice (invoice). The invoice is considered the
official call order and record of services provided to the ALJ. The invoice documents
the expert's identifying information, claimant's identifying information, date of service,
services rendered, and authorizing signatures. The invoice is signed by the ordering
official, the expert, and the ALJ to certify that services were provided. The HO gives the
original invoice to the expert to request payment directly from the Office of Finance,
Division of Administrative Payments (DAP). To request payment, the expert submits a
batch of invoices with a “Consolidated Monthly Invoice for Expert Witness Services”
(voucher) to DAP.

DAP Procedures

                             DAP administers the expert payment process and
In FY 1999, Payments to      maintains the original vouchers and invoices for experts
VEs and MEs Totaled          covered by a BPA as required by the “Examination
$37.1 million or             Procedures for Commercial Invoices.”3 DAP procedures
5.4 Percent of OHA's         call for performing three distinct and separate steps to
Total FY 1999 Budget of      verify and authorize the voucher for payment. First, a DAP
$687 million                 staff member performs a review of the voucher and
                             invoices. The review ensures that a BPA is on file and is
dated and signed, with invoices having original signatures of the ordering official, expert,
and ALJ, and the services rendered and the fees are appropriate and accurate. A
second DAP staff member then enters payment information into the Financial
Accounting System (FACTS).4 Finally, a team leader performs a final review before
approving the voucher for payment. Once the voucher is approved, the expert receives
payment by Electronic Funds Transfer.5

The voucher and invoices are filed by FY in folders in mobile file units located in DAP.
The vouchers are filed by the first two letters of the expert’s last name or by the first two

3
 SSA’s Accounting Policies and Procedures, TN 82.13, dated July 30, 1982, Examination Procedures--
Commercial Invoices, 8-01-80 Consultants
4
    FACTS is SSA’s official account and budget data system.
5
    See 31 C.F.R. § 208.3.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                               2
letters of a company’s name. Due to space limitations, the vouchers are kept for only
the two most recent FYs. Afterwards, the vouchers are sent to the Federal Records
Center.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

•	 Researched and reviewed relevant laws and regulations applicable to OHA, and
   DAP policies and procedures for paying invoices and maintaining files of original
   source documents.

•	 Analyzed the requisition, authorization, and accounting functions of the VE and ME
   fee for service process.

•	 Selected a random sample of 100 vouchers for review from a population of
   33,100 vouchers paid in FY 1999 (see Appendix B) from SSA's FACTS. A total of
   $37.1 million was paid to VEs and MEs in FY 1999. We did not verify the
   completeness of the number of vouchers or total dollars paid in FY 1999. However,
   nothing came to our attention to indicate that the number of vouchers and the total
   dollars paid were not at least 33,100 and $37.1 million, respectively.

•	 Reviewed 88 vouchers and the 944 invoices attached to those vouchers for
   accuracy, authorization, and support. DAP could not locate 12 vouchers.

•	 Used SSA and OHA systems to verify VE and ME service information provided on
   invoices and made inquiries of DAP and HO staff as needed to verify the accuracy of
   the information recorded on the invoices.

Our methodology included interviewing the OHA staff in OCALJ and in the Baltimore
HO to understand the hearing process and the services provided by VEs and MEs to
OHA. Our interviews also included SSA staff in DAP responsible for processing and
paying the expert vouchers and invoices, and OAG staff to understand the
implementation of the BPA small purchase process.

Our review applied to DAP and OHA's compliance with policies and procedures for
processing and accounting for payments, and maintaining original source documents.
We did not evaluate the BPA award process to determine whether contracts were
properly awarded, nor did we evaluate OHA's compliance with rotational use of experts.

We conducted our audit from April 1999 through April 2000 in Baltimore, Maryland and
Falls Church, Virginia. The entities reviewed were OHA under the Deputy
Commissioner for Disability and Income Security Programs; and the Office of Financial
Policy and Operations under the Deputy Commissioner for Finance, Assessment and
Management. We conducted our audit in accordance with generally accepted
government auditing standards.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                   3
                                                         Results of Review

Our audit disclosed that internal controls over payments for services rendered by
vocational and medical experts were not effective in detecting and preventing improper
payments. The internal control of management should provide reasonable assurance of
effectiveness and efficiency of operations; reliability of financial reporting; and
compliance with applicable laws and regulations. A fundamental concept of internal
control is that it is a continuous built-in component of operations; it is effected by people;
and it provides reasonable assurance, not absolute assurance.6 Our review identified
the following weaknesses with the internal control process:

•	 HOs turned over control of original invoices to VEs and MEs, who in turn submitted
   vouchers directly to DAP. The HOs were not required to keep copies of the signed
   invoices and were not aware of which invoices the experts had submitted for
   payment. With this process, OHA does not have the capability to reconcile
   payments made with services rendered, and DAP cannot record a liability for expert
   services until it receives a voucher for payment.

•	 DAP did not follow its policies and procedures in examining the accuracy and proper
   authorization of vouchers submitted for payment by vocational and medical experts.

•     DAP did not properly maintain and file its vouchers.

From our random sample of 100 vouchers, we reviewed 88 vouchers and the attached
944 invoices. DAP could not locate 12 vouchers for our review. Of the 88 vouchers
reviewed, we found 5 vouchers containing 11 invoices where DAP made overpayments
totaling $355. We also found 38 vouchers where DAP paid 170 invoices (totaling
$17,445) which were not properly authorized or dated. Projecting the results of our
sample items to the population of 33,100 vouchers valued at $37.1 million we estimate
that 12,578 vouchers contain invoices totaling $5.8 million where payments were not
properly signed or dated. We also estimate that 3,972 vouchers totaling $3.4 million
cannot be located. See Appendix B for our statistical projections.

HO AND DAP RESPONSIBILITIES
The HO Chief ALJ and the HO Manager oversee the administration of the processing
and authorization of the services required and fees paid to the expert. At a minimum,
the process requires that invoices be properly documented and authorized by the
appropriate officials. The invoice is an important link between the services provided, the
authorization process in the HO, and the final payment process. The DAP guidelines
specify that the information on the invoices should be verified for accuracy and proper
authorization.


6
    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                             4
Federal guidelines require that agency offices review each invoice as soon as
practicable after receipt to determine whether the invoice is certified properly for
payment. The transactions and other significant events are to be authorized and
executed only by persons acting within the scope of their authority. The invoice is
considered the official record whereby the expert is paid for the services rendered and
fees authorized by the ALJ. As an official record, the invoice must include the signature
and date of the ordering official, the signature and date of the contractor, and the
signature and date of the ALJ.

Federal guidelines also require that the agency’s use of resources be efficiently and
effectively allocated for duly authorized purposes and the documentation for
transactions, management controls, and other significant events must be clear and
readily available for examination.7

INTERNAL CONTROLS
Our review disclosed that internal controls over payments for services rendered by
vocational and medical experts were not effective in detecting and preventing improper
payments. Specifically, we found: (1) HOs did not perform a quality review of the
invoices before releasing them to the experts; (2) the internal control process for paying
VEs and MEs was inadequate; and (3) DAP did not follow its policies and procedures
for examining the accuracy and proper authorization of vouchers submitted for payment
by experts.

HOs could release invoices to the expert without performing a quality review. For
example, in requesting that a HO send us copies of the original and the duplicate
invoice that DAP paid, we learned that the HO (1) did not have signed copies of the
invoices, and (2) HO clerks do not necessarily determine or know that the expert has
appeared at more than one hearing on the same day. Consequently, a HO may
inadvertently process more than one invoice with an expert's "first appearance" fee.

The internal control process for paying VEs and MEs for services rendered is
inadequate because the HO turns over control of the authorizing document to the
experts and it does not have a compensating control with which to confirm to DAP that
services were provided. Because the original invoice is provided to the expert after the
ALJ signs it and HOs are not aware of which invoices the expert submits for payment,
an expert could conceivably alter the invoice before sending it to DAP. Further, since
experts submit vouchers that consolidate invoices and HOs are not aware which
invoices were sent to DAP, OHA does not have the capability to reconcile payments
made with services rendered. Also, DAP cannot record a liability for expert services
until it receives a voucher for payment.




7
  See Office of Management and Budget Circular A-123, “Management Accountability and Control,"
revised June 21, 1995.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                           5
DAP did not follow its policies and procedures for examining the accuracy and proper
authorization of vouchers submitted for payment by vocational and medical experts or
for tracking and filing vouchers. DAP’s examination procedures, issued in 1982,
specifically require that all invoices be examined. However, when we interviewed DAP
staff, we were informed that they consider the examination procedures outdated and
they do not use or rely on them to verify the accuracy of information recorded on the
invoice. Rather, DAP only reviews the voucher to verify that the total of all attached
invoices matches the total on the front of the voucher.

SERVICES RENDERED AND AMOUNTS PAID
We found six invoices where the amount paid exceeded the amount specified in the fee
schedule for the services on the invoice; one invoice where the fee billed was for a
service that differed from the service provided; three invoices for three VEs where the
VE was paid at the higher rate for more than one “first appearance” on the same day;
and one invoice that was paid, although it was a duplicate invoice.

                              Six invoices were paid for an amount greater than the
Invoices Had Differences amount specified in the fee schedule for the services on
Between Services              the invoice. All six invoices show that the expert had
Provided and Fees Paid performed a study of the file and answered interrogatories.
                              The total fee for these services is $130 ($80 for the study
and $50 for the interrogatory). However, the fee amount on each invoice was $160.
The $160 amount is the fee for performing a study of the file and appearing at a
hearing. We called the HOs and they confirmed that the invoices accurately reflected
the services provided. Therefore, DAP overpaid each invoice by $30. Although the HO
is responsible for ensuring that the fees are accurately recorded on the invoice, DAP
also could have caught the error and questioned the amounts billed by reviewing the
invoices for accuracy.

                              One invoice was paid where the fee amount billed was for
Amount Billed Differed        a service that differed from the service provided. This
From Services Provided        resulted in a $30 overpayment. The invoice amount
                              indicated that the expert performed a study ($80) and
testified at a hearing ($80). However, OHA records, including the HO decision and the
Hearing Office Tracking System case history, showed that the services rendered were
for a study ($80) and answering interrogatories ($50). DAP paid the amount billed of
$160. In this case, DAP’s review of the invoice would not have caught the error since
the authorizing signatures on the invoice would indicate to them that the services were
actually provided. The HO, however, should have ensured that the correct amount was
billed for the services rendered.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                   6
                               Three invoices for three VEs were improperly paid at the
Experts Were Paid for          higher rate for more than one “first appearance” on the
More Than One "First           same day. According to guidelines used by the HO, a VE
Appearance" on the             may be paid $110 for a study and "first appearance" of the
Same Day                       day (the fee for a study is $40 and the fee for a "first
                               appearance" of the day is $70). Other appearances at
hearings on the same day are paid at the reduced rate of $35. We found three
instances where a VE was paid for a case study and a "first appearance" of the day on
one invoice and was also paid for a "first appearance" on another invoice in providing
services for a different claimant and ALJ. In each instance, the VE was overpaid $35.

                             One invoice of $40 was paid although it was a duplicate
HO Paid a Duplicate          invoice. In this case, the HO issued two invoices with the
Invoice to an Expert         same call order number, for the same claimant and the
                             same services and usage date. One invoice had the ALJ’s
original signature. The other invoice contained initials other than those of the ALJ.

The DAP guidelines specify that the information on the invoices should be verified for
accuracy and proper authorization. The invoice with the initials other than those of the
ALJ was not properly authorized and DAP staff did not take exception to it. In
requesting that the HO send us copies of the original and duplicate invoices, we learned
that the HO did not have signed copies of the invoices. The HO indicated that it does
not perform a quality review before releasing the invoices to the expert. The HO could
have minimized the risk of issuing a duplicate invoice by using a quality review process.

INVOICE AUTHORIZATIONS
We found that DAP paid invoices that did not have one or more of the required
authorizing signatures, or for which dates were missing next to one or more of the
authorizing signatures, or where there was no indication that the authorizing official
approved the changes made on the invoice. However, for these invoices, we were able
to confirm that services were rendered and the experts were entitled to payment.

                               DAP paid 27 invoices that did not have one or more of the
Invoices Did Not Have          required authorizing signatures. Of these 27 invoices, 15
Authorizing Signatures         were missing the signature of the ordering official, 18 were
or Dates                       missing the signature of the ALJ, and 11 were missing the
                               signature of the expert. Examination procedures state that
the invoice must be signed by the ordering official, contractor and receiving official.
There should be no two signatures alike on the invoice and, if signatures are missing,
the original is returned to the HO that issued the invoice. Further, SSA's Finance and
Accounting Manual, Chapter 03.04.05B, states that all payments for goods or services
rendered to SSA must be examined to ensure that the goods or services ordered were
delivered and accepted as evidenced by a signed receiving or inspection document.


Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                    7
                             In addition to the missing signatures, we found that 134
Altered Fee Amounts on       invoices did not have one or more dates annotated next to
Invoices Were Not            authorizing signatures on invoices. We found 55 invoices
Authorized by HO             with changes made to the fee amounts. In 46 of these
                             invoices, the authorizing official had initialed the changes;
however, in 9 invoices there was no indication that the authorizing official approved the
changes. Consequently, for the 9 invoices where the authorizing official had not
approved the change, DAP had no assurance that the altered amount represented an
accurate charge on the invoice.

MISSING VOUCHERS
                                 DAP staff could not find 12 of the 100 vouchers
DAP Could Not Find 12            (12 percent) in our sample. Since the 12 missing vouchers
of the 100 Vouchers in           and attached invoices could not be located, we were
Our Sample                       unable to verify that the vouchers were properly authorized
                                 and dollar amounts were accurate.

Guidelines8 requiring the use of internal controls within Federal agencies specify that,

       Transactions should be promptly recorded, properly classified and
       accounted for in order to prepare timely accounts and reliable financial
       and other reports. The documentation for transactions, management
       controls, and other significant events must be clear and readily available
       for examination. In addition, access to resources and records should be
       limited to authorized individuals and the accountability for the custody and
       use of resources should be assigned and maintained. Periodic
       comparison shall be made of the resources with the recorded
       accountability to determine whether the two agree. Documents should be
       secured and properly maintained by the responsible entity.

We found that DAP did not have specific guidelines for filing and maintaining the
vouchers and invoices. DAP staff searched extensively over a 2-week period to locate
the missing vouchers. According to DAP, paid vouchers and invoices are stacked on a
table and accumulate until a clerk working overtime files them. Since DAP staff have
other priorities and filing is not part of the normal duties performed by the clerks, filing
the vouchers and invoices is considered a low priority. In addition, as part of the
renovation of SSA’s main complex in Baltimore, DAP moved from the Annex Building to
the renovated East Building in July 1999. The movers did not take due care with the
boxes to assure that everything arrived in the same condition at the new location. For
example, file boxes used by the movers were not sturdy and were larger than the files
being moved, allowing movement of the files and papers within the boxes.



8
  The Office of Management and Budget Circular A-123, “Management Accountability and Control,"
revised June 21, 1995.

Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                           8
                                                    Conclusions and
                                                    Recommendations
The process for paying VEs and MEs for services rendered contains weaknesses that
hinder SSA's ability to minimize the opportunities for fraud, waste, and abuse. We
found that HOs do not perform a quality review of invoices before releasing them to the
expert. The HO process of turning the invoices over to the expert for direct billing to
DAP creates an internal control weakness in that SSA does not control the authorizing
document. Further, SSA does not have a compensating control with which HOs can
confirm to DAP that services were provided. A VE or ME could conceivably alter the
invoice before sending it to DAP. Furthermore, OHA does not have the capability to
reconcile payments made by DAP with services rendered by the experts. We also
found that DAP did not follow its policies and procedures for examining the accuracy
and proper authorization of vouchers, and it did not have specific guidelines for tracking
and filing vouchers.

To strengthen the controls of the VE and ME payment process, we recommend that
SSA:

1. 	 Establish a quality review process in HOs to ensure that invoices have the correct
     fee amounts for services actually performed and contain all appropriate authorizing
     signatures and dates.

2. Establish a system of management controls whereby:
   •	 The control of the original invoices is not turned over to the experts for direct
      billing to DAP;
   • HOs can confirm to DAP that services were provided;
   •	 OHA can reconcile payments made by DAP with services rendered by the
      experts; and
   •	 SSA can determine its liability to experts for services rendered without having to
      rely on vouchers submitted by experts.

3. 	 Update DAP examination procedures and require that DAP staff perform a quality
     review of vouchers for completeness and accuracy before effecting payment.

4. Establish guidelines to ensure the accountability of payment files at DAP.

AGENCY COMMENTS
In response to our draft report, SSA disagreed with our first recommendation, but added
that it would explore methods to strengthen the current payment process to ensure its
accuracy. As an example of its efforts in this area, SSA referred to a memorandum
reminding HOs of the requirements for processing payments to experts. Specifically,
this memorandum addressed the requirement to sign the forms after services are
Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     9
rendered, maintain a copy of the signed voucher in the ALJ folder, and verify that fees
are in accordance with the approved schedule prior to certifying the voucher.

SSA also disagreed with our second recommendation, stating that it must assess the
impact on current staffing and workload processing before it could implement a system
of management controls. Further, SSA will explore the possibilities of expanding
automation processes, such as automatically generated documents to reduce the time
spent on the current process.

SSA agreed with our third and fourth recommendations. Specifically, SSA plans to:
update the DAP Accounting Manual regarding examination procedures and include
filing procedures in the Accounting Manual to ensure the accountability of payment files.
It has also implemented a limited audit of all invoices less than $2,500 and a full review
for invoices over $2,500. In addition to responding to each of our recommendations,
SSA also stated its belief that the questioned costs cited in our report are overstated.

OIG RESPONSE
While SSA disagreed with our first recommendation, SSA listed several required HO
procedures related to expert invoices in its comments. By listing these requirements,
SSA is acknowledging that it has a management control system in place. However, our
review found that employees do not always follow these procedures. Hence, we
continue to believe that HOs should ensure the required procedures are completed.
While SSA explores efforts to strengthen the current payment process, it should also
consider how best to monitor compliance with its existing requirements.

With respect to our second recommendation, we agree that the impact on current
staffing and workloads are concerns that should be considered when implementing a
system of management controls. However, these concerns should not be used as a
basis for ignoring the vulnerabilities that exist in the current process. The use of
automation is a possible way to improve the current process; however, the expediency
with which documents are prepared does not address the vulnerabilities for fraud or
abuse that exist in the current process. SSA needs to control the billing process for
expert services and ensure that it can account for its liability for the services rendered—
a basic management responsibility. The current process does not provide this
capability, nor does it allow HOs to readily confirm to DAP that services were rendered.

With respect to SSA’s comments regarding questioned costs, we estimated that
12,578 vouchers contained invoices totaling $5.8 million that were not properly
authorized or dated. DAP did not have assurance that these invoices were accurate
and authorized at the time they paid them.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                    10
                                               Appendices





Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                                                         Appendix A

Vocational Expert and Medical Expert Fee
Schedules
                                     VOCATIONAL EXPERTS

            Study                                                         $40
            Remand Study                                                  $60
            Interrogatory                                                 $35
            Additional Evidence                                           $30
            First Appearance of the Day                                   $70
            Other Appearance Same Day                                     $35
            Discussion                                                    $50


                                      MEDICAL EXPERTS

            Study                                                         $80
            Remand Study                                                  $80
            Interrogatory                                                 $50
            Additional Evidence                                           $40
            First Appearance of the Day                                   $80
            Other Appearance Same Day                                     $80
            Discussion                                                    $50
            Preparation of Lecture                                        $50
            Continuing Education Seminar                                  $80
            Medical Assessment after a Fee was Paid                       $40
            Conferences                                                   $80




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                                                          Appendix B

Sampling Methodology and Results
We extracted 33,100 records from the Social Security Administration’s Financial
Accounting System representing the Office of Hearings and Appeals financial data for
payments made to vocational and medical experts (expert) for Fiscal Year (FY) 1999.
Each record represents an amount paid for a voucher submitted by an expert. From
this population of 33,100 records, we selected a simple random sample of 100 vouchers
and the attached invoices for review. We selected FY 1999 because the documentation
and financial data were the most recently completed data available when we began our
review.

We appraised the sample of 100 vouchers for three characteristics. The first
characteristic was vouchers that had invoices improperly paid. The second
characteristic measured vouchers that deviated from policies and procedures. The third
characteristic was missing vouchers. For the second and third characteristics, we made
attribute (number of vouchers exhibiting the characteristic) and variable appraisals
(dollar value of the vouchers with the characteristic) as shown on pages B-2 and B-3.


Table B-1: Vouchers with Inaccurate Payments

                    Type of Error                         Number of      Dollar Value of
                                                          Vouchers            Error
    Amount paid on voucher did not agree                        1              $210
    with the fee schedule for the services and
    amount paid exceeded the fee for services
    Experts were paid for more than one “first                  3               105
    appearance” on the same day
    Duplicate invoice paid                                      1                40
           Total Inaccurate Payments                            5              $355


Of the 5 vouchers listed above with inaccurate payments, 2 contained invoices which
were also not authorized or dated. These 2 vouchers are included in the table below
showing the 38 vouchers which contained invoices which were not authorized or dated.
Combined, 41 vouchers contained errors—3 with inaccurate payments, 2 with
inaccurate payments and missing authorizations or dates; and 36 which were not
authorized or dated. We did not project the 5 inaccurate payments to the sample
population.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     B-1
Table B-2: Vouchers with Improperly Authorized Invoices


                    Type of Error                         Number of      Dollar Value of
                                                          Vouchers            Error
    Vouchers with invoices not signed                           7            $2,555
    Vouchers with invoices not dated                           24           $12,000
    Vouchers with invoices not signed or                        1            $2,320
    dated
    Vouchers with fees changed but not                          4              $390
    authorized on invoices
    Vouchers with fees changed but not                          2              $180
    authorized on invoices and invoices not
    signed
                      Totals                                   38           $17,445



         Attribute Appraisal: Vouchers with Improperly Authorized Invoices

       Total Population                                                        33,100
       Sample Size                                                                100
       Number of Incorrect Vouchers                                                38
       Estimated Number of Vouchers in Population with Errors                  12,578

Confidence Level: We are 90 percent confident that the actual number of vouchers with
improperly authorized invoices in the total population is between 9,891 and 15,446.


         Variable Appraisal: Vouchers with Improperly Authorized Invoices

       Total Dollar Error found in Sample of 100 vouchers                     $17,445
       Total Sample Size                                                          100
       Total Population                                                        33,100
       Total Dollar Amount of Errors Projected in the Universe             $5,774,295

Confidence Level: We are 90 percent confident that the actual dollar value of vouchers
with improperly authorized invoices in the population is between $3,775,747 and
$7,772,843.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                     B-2
                           Attribute Appraisal: Missing Vouchers

       Total Population                                                     33,100
       Sample Size                                                             100
       Number of Missing Vouchers                                               12
       Projection of Vouchers in Total Population Containing Errors          3,972

Confidence Level: We are 90 percent confident that the actual number of missing
vouchers in the total population is between 2,342 and 6,192.


                           Variable Appraisal: Missing Vouchers

       Total Dollars of Missing Vouchers in Sample                          $10,175
       Total Sample Size                                                        100
       Total Population                                                      33,100
       Estimated Value of Missing Vouchers in Population                 $3,367,925

Confidence Level: We are 90 percent confident that the actual dollar value of missing
vouchers in the total population is between $1,199,023 and $5,536,827.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                  B-3
                                                                         Appendix C


Agency Comments





Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                                       ~ SEC'b
                                                      ~V         ~...
                                                      ~ rt' ~~~
                                                          usA'\;
                                                      \      IIII1II~
                                                          'lvlSTiJ'

                                         SOCIAL             SECURITY


MEMORANDUM


           June 26,2001                                                          Refer To: SlJ-3

To         JamesG. Ruse, Jr.
           Inspector General

           Larry   G   .


                                 ~ia{~~Urity

Subject:   Office of the Inspector General (OIG) Draft Report, "Vocational Expert and Medical Expert Fees
           for Services" (A-O~.:.~~-51
                                     005}-INFORMA TION




           We appreciateOIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Pleaselet us know if we may be of further assistance.Staff questionsmay be referred to
           Robert Berzanski on extension 52675.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“VOCATIONAL EXPERT AND MEDICAL EXPERT FEES FOR SERVICES”
(A-06-99-51005)


Thank you for the opportunity to review and provide comments on this draft report. Following
are our comments on the recommendations.


Recommendation 1

Establish a quality review process in hearing offices (HO) to ensure that invoices have the
correct fee amounts for services actually performed and contain all appropriate authorizing
signatures and dates.
Comment

We disagree. As an alternative to overhauling the process or requiring additional staff work, the
Social Security Administration (SSA) will explore methods to strengthen the current payment
process to ensure its accuracy. For example, on November 29, 2000, a memorandum was issued
to HOs from the Chief Administrative Law Judge (ALJ) reminding the offices of the
requirements for processing payments to experts. Specifically, the memorandum addressed the
requirement to sign the forms after services are rendered, maintain a copy of the signed voucher
in the ALJ folder and verify that fees are in accordance with the approved schedule prior to
certifying the voucher.

Recommendation 2

Establish a system of management controls whereby:
•	 The control of the original invoices is not turned over to the experts for direct billing to the
    Division of Administrative Payments (DAP);
• HOs can confirm to DAP that services were provided;
•	 Office of Hearings and Appeals (OHA) can reconcile payments made by DAP with services
    rendered by the experts; and
•	 SSA can determine its liability to experts for services rendered without having to rely on
    vouchers submitted by experts.
Comment

Before SSA can consider implementation of a system of management controls, we must assess
the impact it would have on current staffing and current workload processing. Prior to 1995,
HOs were responsible for submitting billing for the expert services. However, because that
process was so time-consuming the procedures were changed and experts submitted their
vouchers directly to DAP for payment. This change was necessary to alleviate the demands on
HO staffing and reduce time required to process expert witness payments.



Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                           C-2
In conjunction with reassessing this current payment procedure, we will explore the possibilities
of expanding automation processes to improve the current payment system. If HOs had the
option of using automatically generated documents, the time spent on the current process would
be reduced.

Recommendation 3

Update DAP examination procedures and require that DAP staff perform a quality review of
vouchers for completeness and accuracy before effecting payment.

Comment

We agree but question the cost effectiveness of conducting a 100-percent quality review of all
vouchers. DAP will update the Accounting Manual Chapter 8-110-18 by December 28, 2001
regarding examination procedures of the medical experts/vocational experts (ME/VE) payments.
The procedures in existence at the time of the audit (fiscal year 1999) required 100-percent
review of all necessary items affecting payment. Because of the magnitude of the workload and
reductions in staff, some inadvertent omissions and errors occurred during the review process.
Effective January 4, 2001, SSA implemented a limited audit of all invoices less than $2,500 and
a full review for invoices over $2,500.

In addition, we believe the questioned costs of $5,774,295 may be overstated. The figure relates
to the amount of money projected in vouchers paid where the documentation is incomplete or
incorrect. According to the description in the executive summary, while the documentation was
deficient, the related payments were correct. Incorrect payments, projected to the entire universe
of the workload, would be $133,528 out of $37,100,000.

Recommendation 4

Establish guidelines to ensure the accountability of payment files at DAP.

Comment

We agree that guidelines will ensure the accountability of payment files. SSA will include filing
procedures in the Accounting Manual Chapter 8-10-03 File Maintenance Procedures by
December 28, 2001. Filing instructions currently exist in the Administrative Instructions Manual
System guide that explains alphabetical filing procedures. In addition, desk procedures for filing
were provided to employees in February 1999 and updated in October 2000. We believe the
inability to locate vouchers for the ME/VE audit in 1999 was the result of an office relocation in
July 1999 from the Annex to the East Building and the subsequent transition of files from five
drawer file cabinets to a mobile file unit. Since the ME/VE audit was conducted, we have
provided 100 percent of files requested for other audits.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)                         C-3
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Paul Davila, Deputy Director, (214) 767-6317


Acknowledgments
In addition to the person named above:

   Sandra Westfall, Program Analyst

   Lela Cartwright, Auditor


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-06-99-51005.




Vocational Expert and Medical Expert Fees for Services (A-06-99-51005)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
